         OFFICE OF

    INSPECTOR GENERAL





  Semiannual Report to Congress
  April 1, 2001 - September 30, 2001
        Federal Election Commission

         999 E Street, N.W., Suite 940

           Washington, D.C. 20463


   202-694-1015 - Toll-Free: 1-800-424-9530


         e-mail address: oig@fec.gov

website address: http://www.fec.gov/fecig.htm


             November 2001
               Special Message of Condolence


The Federal Election Commission, Office of Inspector
General wishes to express deep sorrow and heartfelt
condolences to all those who have experienced traumatic
injuries, as well as the loss of family, friends and co­
workers in the great tragedy that took place in our nation
on Tuesday, September 11, 2001 - a day forever etched in
our memory.

We would also like to pay tribute to the firefighters, police
and rescue workers for their incredible bravery in the
effort to save lives, they are the true heroes. Although a
disaster of this magnitude leaves us all grieving, this is the
foremost opportunity for all American citizens to unite and
interact for a common cause. This is one of the greatest
challenges we will face, by standing together as a nation,
we draw the strength to endure.
                                 TABLE OF CONTENTS

SUBJECT                                                                                PAGE




EXECUTIVE SUMMARY.......................................................                  1


FEDERAL ELECTION COMMISSION.................................                              9


AUDIT REPORTS...................................................................          11


AUDIT FOLLOW-UP..............................................................             13


INSPECTION REPORTS........................................................                15


INVESTIGATIONS.................................................................           29


ADDITIONAL OFFICE OF INSPECTOR GENERAL

   ACTIVITY.........................................................................      30


ECIE AND PCIE ACTIVITY...................................................                 38


REPORTING REQUIREMENTS............................................                        40


TABLE I - QUESTIONED COSTS..........................................                      41


TABLE II - FUNDS PUT TO BETTER USE...........................                             42


TABLE III - SUMMARY OF AUDIT REPORTS WITH

            CORRECTIVE ACTIONS OUTSTANDING

            FOR MORE THAN SIX MONTHS.....................                                 43


FEC/OIG STRATEGIC PLAN..................................................                  44


CONTACTING THE OFFICE OF INSPECTOR

   GENERAL.........................................................................       45





April 1, 2001 - September 30, 2001
                                EXECUTIVE SUMMARY


         This semiannual report covering the period April 1, 2001 through

September 30, 2001, is submitted pursuant to the Inspector General Act of

1978, as amended. This Executive Summary provides a brief synopsis of

accomplishments and general activities pertaining to the Office of Inspector

General (OIG).



         The Office of Inspector General released three inspection reports

during this reporting period. Inspection of the Commission’s Web Site

Privacy Practices (OIG-01-02 - May, 2001), the first to be released, was

initiated as a result of a statutory requirement regarding Section 646 of the

Treasury and General Government Appropriations Act of 2001. The Act

requires each Federal Inspector General to submit a report to Congress on

their agency’s Internet site privacy practices.



         The primary objectives of the inspection were to evaluate the

Commission’s Web site privacy practices to: 1) determine whether the

Commission utilizes Internet cookies or Web bugs, and whether applicable

Federal guidelines are being followed; and 2) evaluate the Commission’s Web

site privacy policy in accordance with Federal guidelines. To complete the

inspection, various steps were performed including meetings with several




April 1, 2001 - September 30, 2001                                           Page 1
divisions relating to the FEC’s Web site privacy practices, and reviewing the

accuracy and adequacy of the FEC’s Web site privacy statement.



         The OIG concluded that the Commission is in compliance with

applicable Office of Management and Budget guidelines on Web site privacy.

In addition, the OIG found the Commission is adhering to the stated Web site

privacy policy. However, our inspection report contained six suggestions for

improvement, five have been implemented and one remains outstanding.

Significant information regarding this inspection is located on page 15, the

section entitled Inspection Reports.



         The second report entitled, Inspection of the Commission’s

Compliance with the Federal Managers’ Financial Integrity Act

(FMFIA) of 1982 (OIG-01-03 - June, 2001), was performed to assess the

Commission’s program for meeting the requirements of the Act. The

objectives were to: 1) evaluate the Commission’s compliance with the

provisions of the Federal Managers’ Integrity Act of 1982, General Accounting

Office (GAO) Standards, Office of Management and Budget (OMB) policies,

and Commission directives; 2) determine whether the Commission

adequately implemented agency policies and procedures to assess, as well as

strengthen the internal control environment; 3) determine whether the

Commission’s Annual FMFIA report for Fiscal Year 2000 to the President and

Congress accurately represented the adequacy of the review process within


April 1, 2001 - September 30, 2001                                        Page 2
the Commission; and 4) follow up on issues addressed during the 1991 review

of the Commission’s FMFIA program.



         The OIG found the Commission’s FMFIA review process to be

inadequate. Several examples of noncompliance with OMB and Commission

policies were identified and conveyed to management. The FMFIA review

process lacked documentation, management control plans and the required

assurance statements. Page 19 contains more information in reference to

this report.



         Inspection of the Commission’s Westlaw Database Service (OIG-

01-05 - July, 2001), the third and final inspection report released during this

reporting period, was conducted after the OIG discovered that a separated

employee’s Westlaw account remained open several months after the

employee left the agency. The objectives of the inspection were to: 1) ensure

that the Westlaw accounts of separated employees are properly canceled; and

2) review and evaluate the payment process of the Westlaw service.



         Overall, the OIG found weaknesses in the management of the

Westlaw service. In addition, the OIG discovered a pattern of improper

payments occurred over a specified period of time. The OIG concluded the

weaknesses were the result of inadequate internal controls of the Westlaw

program and the improper payments were inadvertent errors and not the



April 1, 2001 - September 30, 2001                                        Page 3
result of fraud or abuse. Additional information pertaining to this report can

be found on page 25.



         Follow-up work on the audit entitled Agency Year 2000

Renovations - OIG-98-08, was conducted during this reporting period. The

original audit, released May 1999, was performed to assess the reported

progress of the FEC to convert and implement Y2K repairs on its computer

systems. The report included nine audit recommendations to management,

three were closed during a previous reporting period, the other six remained

open.



         The OIG recognized that the outstanding Y2K audit recommendations

presented a unique situation, and as such the audit follow-up process was

modified. Since the audit recommendations were directed to a specific point

in time (January 1, 2000), the OIG has chosen to close the six outstanding

recommendations contained in the original audit report. The Audit Follow-

up section, located on page 13, contains more information on the follow-up

work conducted.



         During this semiannual period the Office of Inspector General

completed a peer review entitled, Peer Review of the Federal Housing

Finance Board (FHFB) (OIG-01-08 - September, 2001). The objectives of

the peer review were to determine whether the FHFB OIG’s internal quality


April 1, 2001 - September 30, 2001                                        Page 4
control system is designed to provide a reasonable assurance that the audits

it performs, and the audits conducted by nonfederal auditors of FHFB

programs and activities, are carried out in accordance with Government

Auditing Standards. Detailed information regarding the peer review is

discussed on page 34.



         The OIG also initiated a special project pertaining to staff retirement.

The purpose of the retirement project is to provide an analysis of the FEC’s

projected employee retirements. The OIG analysis will include statistics on

employee retirements within a time period of five, seven, and ten years.

More information relating to this special project is located on page 35.



         During a previous reporting period, the Office of Inspector General

initiated an audit entitled, Procurement Operations (OIG-00-03). The

primary reason for conducting the audit is to see if the FEC has implemented

the key acquisition reforms contained in the Federal Acquisition

Streamlining Act (FASA) of 1994. The primary objectives of the audit are to:

1) determine whether or not the Commission has an efficient and effective

procurement system in place; and 2) determine whether the Commission’s

procurement process complies with statutory and regulatory requirements.



         Specific steps have been taken to complete the audit such as reviewing

records and selecting the audit sample, however, due to several time


April 1, 2001 - September 30, 2001                                           Page 5
sensitive projects, minimal progress was made towards completing the audit

before the end of this reporting period. Additional information regarding this

audit can be found in the Audit Reports section, located on page 11.



         Listed below are highlights of additional activities conducted by the

Office of Inspector General during this reporting period. Items are described

in greater detail, starting on page 30, the section entitled Additional Office

of Inspector General Activity.



         • 	 On October 30, 2000, President Clinton signed into law the FY 2001

             Defense Authorization Act (P.L. 106-398) including Title X, subtitle

             G, Government Information Security Reform Act (GISRA also

             referred to as The Security Act). The Security Act amends the

             Paperwork Reduction Act (PRA) of 1995 by enacting a new

             subchapter on Information Security, which primarily addresses the

             program management and evaluation aspects of security This Act

             applies to all agencies covered by the PRA.



             Since GISRA amends the Paperwork Reduction Act (PRA) and the

             FEC is exempt from PRA, the OIG worked with its counsel to

             ascertain whether the FEC has any responsibility under GISRA.

             The OIG also contacted an OMB representative to determine

             whether an expectation exists for the FEC to follow GISRA. After


April 1, 2001 - September 30, 2001                                           Page 6
             numerous conversations, the OIG was informed by the OMB

             representative and the IG Counsel that the agency is exempt from

             GISRA, therefore, the FEC and the FEC OIG are not required to

             submit reports.



         • 	 The Chairman of the House Committee on Government Reform

             asked the U.S. General Accounting Office (GAO) to study the

             possible effects of: 1) converting some inspectors general in

             designated federal entities to appointment by the President; 2) the

             consolidation of IG offices; and 3) changes to the President’s Council

             on Integrity and Efficiency (PCIE) and the Executive Council on

             Integrity and Efficiency (ECIE). As part of the study, the views of

             all federal IG’s were requested, the survey covered all of the areas

             listed above. The IG responded to the survey, along with additional

             detailed comments. In reference to the response of this survey, see

             page 32 for more information.



         • 	 The Special Assistant to the Inspector General is assigned the

             responsibility of conducting unannounced cash counts of the FEC’s

             imprest fund. During this time frame two cash counts were

             performed (OIG-01-06, and OIG-01-07). The purpose of the cash

             count is to investigate the cash management and internal controls

             of the agency imprest fund.



April 1, 2001 - September 30, 2001                                            Page 7
             The results of our cash counts revealed that all cash was accounted

             for and disbursements from the imprest fund were reasonable and

             consistent with FEC imprest fund policy. However, effective

             October 1, 2001, Federal agencies are no longer required to

             maintain imprest funds. Refer to page 36, which contains detailed

             information on the cash counts, as well as the decision to abolish

             the imprest funds.




April 1, 2001 - September 30, 2001                                           Page 8
                     THE FEDERAL ELECTION COMMISSION


                  The Federal Election Commission (FEC) is an independent,

regulatory agency responsible for administering and implementing the

Federal Election Campaign Act (FECA). The FEC is composed of six

Commissioners who are appointed for six year terms by the President of the

United States, with the advice and consent of the Senate. The FECA

likewise established the positions of Staff Director and General Counsel, who

are appointed by the Commissioners.




                     OFFICE OF INSPECTOR GENERAL


         The Federal Election Commission is one of the thirty-three designated

agencies required to have an Inspector General under the 1988 amendments

to the Inspector General Act of 1978 (P.L. 100-504).



         The responsibilities of the Inspector General as stated in P.L. 100-504

are as follows:

                  • 	 conduct and supervise audits and investigations relating to

                      the Federal Election Commission’s programs and operations;




April 1, 2001 - September 30, 2001                                            Page 9
                  • 	 provide leadership, coordination, and to recommend policies

                      for activities designed to promote economy, efficiency and

                      effectiveness in the administration of Commission programs

                      and operations. To prevent and detect fraud, waste and

                      abuse in these programs and operations, and;



                  • 	 keep the Commissioners and Congress fully and currently

                      informed about problems and deficiencies and the need for

                      and progress of corrective actions.



         The OIG is under the supervision of the Inspector General who

provides overall direction to the staff. The OIG staffing level for FY 2002 is

four (4) full time employees. The staff consists of the Inspector General, the

Special Assistant to the Inspector General and two Senior Auditors.




April 1, 2001 - September 30, 2001                                            Page 10
                                         AUDIT REPORTS


TITLE:                               Procurement Operations


ASSIGNMENT #:                        OIG-00-03


RELEASE DATE:                        In Progress


PURPOSE:                             The primary objectives of this audit are to: 1)


determine whether or not the FEC has an efficient and effective procurement


system in place; and 2) determine whether the FEC’s procurement process


complies with statutory and regulatory requirements.




         The audit is being performed to determine if the Commission has

implemented the key acquisition reforms contained in the Federal

Acquisition Streamlining Act (FASA) of 1994. Other issues relating to the

audit include determining if the goods and services are delivered in a timely

manner; would it be helpful to provide written guidelines on how to order

good and services; and is it necessary for staff to obtain additional training to

address the procedures for acquiring goods and services.



         Specific steps taken to obtain the audit objectives involved reviewing

records, selecting the audit sample, and soliciting feedback from FEC

divisions on the positive and negative aspects of the agency’s process to

purchase goods and services. In addition, the OIG sent an e-mail survey to


April 1, 2001 - September 30, 2001                                                  Page 11
Audit Reports (continued)



managers to assess their satisfaction and experience with the commission’s

procurement process.



         Despite the fact that during a previous reporting period specific steps

had been taken to complete the audit, due to the continuance of several time-

sensitive projects, minimal progress was made towards completing the audit

before the end of this reporting period.




April 1, 2001 - September 30, 2001                                          Page 12
                                       AUDIT FOLLOW-UP


TITLE:                               Agency Year 2000 Renovations


ASSIGNMENT #:                        OIG-98-08

RELEASE DATE:                        May, 1999
(audit report)

WEBSITE ADDRESS:                     http://www.fec.gov/fecig/Y2K.pdf

PURPOSE:                             The purpose of conducting this audit follow-up was

to determine whether management had taken corrective action to resolve the

outstanding recommendations contained in the report. The original audit

was performed to assess the reported progress of the FEC to convert and

implement Y2K repairs on its computer systems. The audit was completed

and released on May 4, 1999, and included a considerable amount of post-

audit work throughout 1999 to monitor the FEC’s progress at addressing the

year 2000 computer issues. The report included nine recommendations to

management. Three of the recommendations were closed during a previous

reporting period, the other six recommendations remained outstanding.



         The OIG recognized the outstanding Y2K audit recommendations

presented a unique situation, and as such, the audit follow-up process was

modified. Since the audit recommendations were directed to a specific project



April 1, 2001 - September 30, 2001                                                Page 13
Audit Follow-up (continued)



with a specific point in time (January 1, 2000), the OIG has chosen to close

the six outstanding recommendations contained in the original audit report.




April 1, 2001 - September 30, 2001                                       Page 14

                                INSPECTION REPORTS


TITLE:                               Inspection of the Commission’s Web Site
                                     Privacy Practices


ASSIGNMENT #:                        OIG-01-02

RELEASE DATE:                        May, 2001

WEBSITE ADDRESS:                     http://www.fec.gov/fecig/internet.pdf

PURPOSE:                             The Office of Inspector General (OIG) conducted

this inspection as a result of Federal legislation enacted in December, 2000.

The legislation, titled the Treasury and General Government Appropriations

Act of 2001, Section 646, required each Federal Inspector General to

determine whether the agency or any third parties, including other

governmental agencies, are obtaining personal information relating to any

individual’s access of an agency’s Internet site. The Act further states that

each Federal Inspector General is to submit a report to Congress on agency

Internet site policy and privacy practices with respect to the use of Internet

cookies or Web bugs, technology used to monitor and/or collect personal

information about users who visit a Web site on the Internet.



         The primary objectives of the inspection were to evaluate the

Commission’s Web site privacy practices to: 1) determine whether the

Commission utilizes Internet cookies or Web bugs, and whether applicable


April 1, 2001 - September 30, 2001                                               Page 15
Inspection Reports (continued)



Federal guidelines are being followed; and 2) evaluate the Commission’s Web

site privacy policy in accordance with Federal guidelines. The Federal

Election Commission’s (FEC) Web site provides the public with access to

information on the mission of the Commission, such as the FEC’s

enforcement of the Federal Election Campaign Act (FECA) and the disclosure

of campaign finance information. To instill confidence in the technology and

encourage the use of Federal Web sites, appropriate privacy policies and

practices must be in place to ensure that users’ right to privacy is protected.



         Internet cookies and Web bugs are methods used by some Web sites to

track and/or record personal information about Web users. There are two

forms of Internet cookies: persistent cookies and session cookies. Persistent

cookies track information over time, and across different Web sites, and

remain stored on a user’s computer hard drive until the specified expiration

date. Session cookies are used only during a single Web browser session and

do not raise privacy concerns, according to the Office of Management and

Budget.



         Web bugs are similar to Internet cookies, and are capable of

monitoring who is viewing a Web page or e-mail message. Web bugs are

very small graphic images on a Web page, or in an e-mail message and are



April 1, 2001 - September 30, 2001                                         Page 16
Inspection Reports (continued)



often invisible. Web bugs are used by some Web sites to track Web usage for

advertising purposes, and to provide an independent accounting of how many

users visited a particular Web site.



         The OIG used specialized computer software to determine whether or

not the Commission’s Web site uses Internet cookies or Web bugs. The OIG

tested the entire fec.gov Web site for the use of Internet cookies. Testing of

the FEC’s other Web servers used for campaign finance disclosure and testing

for Web bugs was performed on a limited basis. To further assist with the

completion of the inspection, additional steps were performed including

conducting meetings with specific FEC staff. The OIG also reviewed the

contracts of two contractors who provide Web related services to the

Commission in order to determine whether or not the contracts included

language to address the non-disclosure of confidential or sensitive

information. The OIG found both contracts contained language that address

the non-disclosure of sensitive or confidential information.



         The results of the inspection revealed no evidence that Internet cookies

or Web bugs are used on the FEC Web sites, which is consistent with the

FEC’s privacy policy. However, a by-product of our testing of the FEC Web

site revealed several of the non-FEC Web sites utilized both persistent



April 1, 2001 - September 30, 2001                                         Page 17
Inspection Reports (continued)



and session cookies. The FEC Web site provides links to other non-FEC Web

sites containing information that is related to the FEC mission. For example,

the FEC Web site provides links to several state government Web sites, and

to a software company that provides software necessary to view certain files

available on the FEC Web site.



         Privacy policies of non-FEC Web sites may differ from the FEC, as we

found during our testing. The FEC’s practice of linking to other Web sites,

some of which utilize cookies, is not a violation of any know Federal policy or

regulation and does not violate the FEC’s privacy policy. However, it is

possible users of the FEC Web site may click with their computer mouse on

non-FEC links without realizing the link is associated with another

organization that may or may not use persistent cookies or Web bugs.



         Our inspection report contained six suggestions for improvement, with

which management concurred. Prior to the end of this reporting period, five

suggestions had been implemented and one remains outstanding. On May

30, 2001, our report was sent to the Subcommittee on Treasury and General

Government and the Subcommittee on Treasury, Postal Service and General

Government.




April 1, 2001 - September 30, 2001                                         Page 18
Inspection Reports (continued)



TITLE:                               Inspection of the Commission’s Compliance
                                     with the Federal Managers’ Financial
                                     Integrity Act (FMFIA) of 1982


ASSIGNMENT #:                        OIG-01-03

RELEASE DATE:                        June, 2001

WEBSITE ADDRESS:                     http://www.fec.gov/fecig/fmfia.pdf

PURPOSE:                             The purpose of conducting the inspection was to

primarily assess the Commission’s program for meeting the requirements of

the Federal Managers’ Financial Integrity Act of 1982. The Act requires

Federal managers to establish a continuous process for evaluating,

improving, and reporting on the internal controls and accounting systems for

which they are responsible.



         The primary objectives of the inspection were to: 1) evaluate the

Commission’s compliance with the provisions of the FMFIA Act of 1982, GAO

Standards, OMB policies, and Commission directives; 2) determine whether

the Commission adequately implemented agency policies and procedures to

assess, as well as strengthen the internal control environment; 3) determine

whether the Commission’s Annual FMFIA report of Fiscal Year 2000 to the

President and Congress accurately represented the adequacy of the review

process within the Commission; and 4) follow-up on issues addressed during



April 1, 2001 - September 30, 2001                                                Page 19
Inspection Reports (continued)



the 1991 audit of the Commission’s FMFIA program.



         The FMFIA was enacted in response to continuing disclosures of waste,

loss, unauthorized use, and misappropriation of funds or assets associated

with weak internal controls and accounting systems. It establishes

requirements with regard to management accountability and controls. This

law encompasses program, operational, and administrative areas as well as

accounting and financial management. The Act further states that agency

heads must submit an annual statement of assurance to the President and

Congress on the adequacy of internal controls and actions taken to correct

identified weaknesses. Each annual statement prepared must also include a

report on whether the agency’s accounting system conforms to the principles,

standards, and other related FMFIA requirements.



         The OMB issued implementing guidance Circular A-123 Revised,

Management Accountability Control, dated June 21, 1995. The Circular

provides detailed guidance to Federal managers on improving the

accountability and effectiveness of Federal programs and operations by

establishing, assessing, correcting, and reporting on management controls.

The A-123 Circular defines management controls as the organization’s

policies and procedures used to ensure that: 1) programs achieve their



April 1, 2001 - September 30, 2001                                       Page 20
Inspection Reports (continued)



intended results; 2) resources are used consistent with agency mission; 3)

laws and regulations are followed; 4) programs and resources are protected

from waste, fraud, and mismanagement; and 5) reliable and timely

information is used for decision making.



         At the Commission, the FMFIA program requirements were

implemented through Commission Directive 53 Revised, Implementation of

A-123: Internal Control Review, dated September 17, 1993 and Commission

Directive 57, Implementation of A-127: Financial Management System

Section of Federal Managers’ Financial Integrity Act (FMFIA), dated

September 17, 1993. The Commission’s FMFIA assessment program relies

upon the results of the informal vulnerability assessments conducted by the

program/office heads of their respective program functions.



         Commission Directive 57 states that the FEC shall develop and

maintain effective systems of financial management to assure management

control over Commission program operations and administrative functions.

This directive established the following OMB required actions into

Commission policy: 1) establish financial management system and issue

operating policies; 2) inventory and evaluate agency systems; and 3) develop

an agency financial management system plan. The annual statement to the


April 1, 2001 - September 30, 2001                                       Page 21
Inspection Reports (continued)



President must include an assurance that the Agency’s financial management

systems complies with government wide standards and requirements as set

forth in A-127.



         To accomplish the inspection objectives, the applicable laws,

implementing guidance, Commission Directives, as well as the prior audit

report entitled Audit of the Federal Election Commission’s Federal Managers’

Financial Integrity Act Program (OIG-91-02) were reviewed. The OIG also

reviewed results of financial system evaluations performed by the Accounting

manager, current (FY 2000) and prior years (FY 1995, 1998 & 1999)

assurance statements and the available documentation. Our inspection also

included discussions with the FMFIA program manager and other

Commission managers with FMFIA assessment responsibilities. Due to the

limited scope of this inspection, actual testing of internal controls techniques

were not considered. Therefore, we did not address the adequacy of internal

control measures with FEC components on an individual basis. Rather, we

addressed the FEC’s program for evaluating and reporting on internal

controls.


         The OIG found the Commission’s FMFIA review process to be

inadequate. Several examples of noncompliance with OMB and Commission

policies were identified and conveyed to management. The FMFIA review

April 1, 2001 - September 30, 2001                                         Page 22
Inspection Reports (continued)



process lacked documentation, management control plans, and the required

assurance statements. We also found that managers had not received the

required training nor was a monitoring system in place to track the

progression of the annual assessment process. A five year Financial

Management System plan, as required by OMB, was not prepared.

Furthermore, we discovered that management failed to fully implement an

agreed upon recommendation made during the 1991 review of the

Commission’s FMFIA program. Due to the insufficient review process, the

OIG could not attest to the accuracy of the Commission’s FY 2000 FMFIA

report to the President and Congress.



         Although the inspection report did not include any formal

recommendations to management, the report did include suggestions to: 1)

fully implement established program procedures; 2) rewrite position

descriptions to include the required internal control element; and 3) develop a

five year Financial Management System Plan as required by OMB.

Management agreed to implement established FMFIA review procedures and

to revise the inaccurate position descriptions. Nonetheless, they believed

that it would be redundant to produce a five year financial plan because the

information is contained in the Commission’s IT Strategic Plan. However,

the Commission’s IT Strategic Plan does not incorporate the strategies and



April 1, 2001 - September 30, 2001                                       Page 23
Inspection Reports (continued)



tactical initiatives required by OMB. Management stated that this issue will

be reviewed further to determine applicability to the FEC.




April 1, 2001 - September 30, 2001                                    Page 24

Inspection Reports (continued)



TITLE:                               Inspection of the Commission’s Westlaw
                                     Database Service


ASSIGNMENT #:                        OIG-01-05

RELEASE DATE:                        July, 2001

WEBSITE ADDRESS:                     http://www.fec.gov/fecig/westlaw.pdf

PURPOSE:                             The Office of Inspector General (OIG) initiated this

inspection after discovering a separated employee’s Westlaw account

remained open several months after the employee left the agency. The two

primary objectives for conducting the inspection were to: 1) ensure that the

Westlaw accounts of separated employees are properly canceled; and 2)

review and evaluate the payment process of the Westlaw service.



         Westlaw provides FEC staff with on-line access to legal and business

databases, and information like Federal court decisions, Congressional

information and Federal statutes. The FEC contracts with West Group, a

division of the Thomson Corporation, to receive the Westlaw research service.

Management approves access for Commission staff whose jobs would benefit

from the Westlaw database service, such as attorneys in the Office of

General Council (OGC). As long as a user has access to the Internet,

regardless of location, the Westlaw service, including premium services, are

accessible with a valid user account.


April 1, 2001 - September 30, 2001                                                 Page 25
Inspection Reports (continued)



         The Office of General Counsel’s Library Office is primarily responsible

for administration of the FEC’s Westlaw program. Management of the

Westlaw program includes the following responsibilities: 1) negotiation of

the annual contract fees with the West Group vendor; 2) training of

Commission staff on the use of the Westlaw service, or coordination of

training provided by West Group; 3) notifications to add or remove employee

Westlaw user accounts; and 4) review and approve receiving reports to

ensure proper billing and payment for services rendered.



         During the course of the inspection, the OIG held several meetings

with internal and external individuals, including West Group vendor

employees, the FEC Accounting Officer, the FEC Administrative Officer, and

the FEC Library Director. The inspection included reviewing documents

such as Westlaw invoices, purchase and receiving orders, active Westlaw

user list and Westlaw database usage reports, FEC employee clearance forms

of separated staff, FEC current employee list and separation dates of prior

staff, and the U.S. Department of Treasury Financial Manual. The

aforementioned documents were reviewed to identify whether an appropriate

process is in place to ensure Westlaw user accounts are canceled upon an

employee’s separation from the FEC. Current Westlaw user accounts found

assigned to separated staff were further reviewed to determine whether the



April 1, 2001 - September 30, 2001                                         Page 26
Inspection Reports (continued)



accounts were accessed after the employees left the FEC, and whether the

access resulted in authorized charges billed to the FEC.



         As a result of the inspection, the OIG found weaknesses in the

oversight of the Westlaw service. Although a pattern of improper payments

occurred over a four year period, all duplicate payments were subsequently

recovered from the vendor. In addition, the OIG found inadequate

management of user accounts. Over forty-two percent of all current accounts

were assigned to separated FEC staff. This weakness created an

unnecessary financial exposure to the FEC due to the potential for separated

staff to access premium databases billed to the FEC.



         Our inspection further revealed that user accounts of former

employees were accessed after the employees’ separation from the FEC. The

OIG could not determine whether the separated employees were the

individuals who actually accessed the accounts. However, it is possible

current employees who inherited the personal computers of the separated

employees, may have been able to use the separated employees’ accounts.

Nevertheless, all access occurred in the “fixed rate” databases, therefore no

additional expenses were found as a result of the unauthorized access.




April 1, 2001 - September 30, 2001                                        Page 27
Inspection Reports (continued)



         Furthermore, the OIG concluded the weaknesses were the result of

inadequate internal control of the Westlaw program. The OIG also concluded

the four improper duplicate payments were the result of ineffective internal

controls since a system was not in place to track ongoing, open purchase

orders. The payments were inadvertent errors, and not the result of fraud or

abuse.



         Management took appropriate steps to cancel all user accounts of

separated employees and agreed to cancel user accounts of separating

employees in the future. To ensure the prompt cancellation of accounts, as

an additional measure, quarterly reports will be provided to the General

Counsel detailing Westlaw user account cancellations of departing employees.




April 1, 2001 - September 30, 2001                                          Page 28
                                     INVESTIGATIONS


         In the previous semiannual report, the OIG noted the assistance

provided to the U.S. Postal Inspection Service, concerning an FEC employee.

Since the last reporting period, the employee pled guilty and has resigned his

position with the FEC. The OIG considers this matter closed.




April 1, 2001 - September 30, 2001                                         Page 29
      ADDITIONAL OFFICE OF INSPECTOR GENERAL ACTIVITY


         All legislation, as compiled by the Commission’s Congressional Affairs

Office, was reviewed by the Inspector General, as required by the Inspector

General Act of 1978, as amended. The Inspector General reviews and

comments, when appropriate, on all legislation provided by the PCIE

Legislative Committee. In addition, the Inspector General routinely reads all

Commission agenda items and attends Finance Committee meetings.



         •	       On October 30, 2000, President Clinton signed into law the FY

                  2001 Defense Authorization Act (P.L. 106-398) including Title X,

                  subtitle G, Government Information Security Reform Act

                  (GISRA also referred to as The Security Act). The Security Act

                  amends the Paperwork Reduction Act (PRA) of 1995 by enacting

                  a new subchapter on Information Security, which primarily

                  addresses the program management and evaluation aspects of

                  security. This Act applies to all agencies covered by the PRA.



                  The Act became effective on November 29, 2000, and sunsets in

                  two years. It seeks to ensure proper management and security

                  for the information resources. The Act requires: 1) annual

                  agency program reviews; 2) annual Inspector General (IG)

                  evaluations; 3) agency reporting to OMB the results of IG

April 1, 2001 - September 30, 2001                                            Page 30
                  evaluations; and 4) an annual OMB report to Congress

                  summarizing the material received from agencies. As part of

                  the budget process, agencies were required to submit this

                  information beginning in 2001. The role of the agency Inspector

                  General essentially codifies the existing requirements of OMB

                  Circular A-130, Appendix III, “Security of Federal Automated

                  Information Resources.” The Act also requires agencies to

                  incorporate security into the life cycle of agency information

                  systems.



                  Since GISRA amends the Paperwork Reduction Act (PRA) and

                  the FEC is expressly exempt from PRA, the OIG worked with its

                  counsel to ascertain whether the FEC has any responsibility

                  under GISRA. The OIG also contacted an OMB representative

                  to determine whether an expectation exists for the FEC to

                  follow GISRA. After numerous conversations, the OIG was

                  informed by the OMB representative and OIG Counsel that the

                  agency is exempt from GISRA, therefore, the FEC and the FEC

                  OIG are not required to submit reports.



                  Although the FEC is not required to follow GISRA, the OIG

                  plans to incorporate information technology audits and




April 1, 2001 - September 30, 2001                                            Page 31
                  inspections into our audit plans to continue our oversight of the

                  agency’s information technology.



         •	       The Chairman of the House Committee on Government Reform

                  asked the U.S. General Accounting Office (GAO) to provide

                  assistance in the oversight work of the Committee. According to

                  the Chairman of the Committee on Government Reform, several

                  bills were introduced in the last Congress that would amend the

                  Inspector General Act of 1978. Although the Chairman felt each

                  bill had merit, it was apparent that none of them fully addressed

                  the issues of concern as it relates to the Committee.



                  The IGs, established over 20 years ago through the IG Act, as

                  amended, provide a valuable service to the federal government

                  through audits and investigations. The Committee was

                  interested in exploring improvements to the IG offices that

                  address overall IG effectiveness and enhancements to their

                  independence. Concerns about IG effectiveness, including

                  independence, quality of work, and the use of government

                  resources, have been raised in the past with no clear resolution.

                  In order to address these concerns, the Chairman of the House

                  Committee on Government Reform asked the U.S. General

                  Accounting Office (GAO) to study the advantages and


April 1, 2001 - September 30, 2001                                              Page 32
                  disadvantages of: 1) converting some inspectors general in

                  designated federal entities to appointment by the President; 2)

                  the consolidation of IG offices; and 3) changes to the President’s

                  Council on Integrity and Efficiency (PCIE) and the Executive

                  Council on Integrity and Efficiency (ECIE). As part of the

                  study, the views of all federal IGs were requested.



                  The survey covered all of the areas listed above. One of the

                  issues raised involved the FEC OIG being consolidated with the

                  IG office at the General Services Administration. The IG

                  responded to the survey and her concerns at being consolidated

                  were strongly expressed. Consolidating the DFE IGs could

                  seriously impair the oversight of agencies and may result in less

                  coverage should they be merged into the larger operations of

                  existing presidentially-appointed IGs. Presidentially-appointed

                  IGs also have resource limitations, which can make it difficult to

                  meet all of their mandates, let alone be able to devote resources

                  or personal attention to new areas outside of mainstream

                  operations. Thus, the perceived benefits from consolidation may

                  well result in the unintended consequences of requiring more

                  training, longer audit and investigations cycles, and less IG

                  oversight of DFE programs and operations.




April 1, 2001 - September 30, 2001                                             Page 33
         •	       During the time frame of this reporting period, a peer review

                  was conducted. The Office of Inspector General completed the

                  review entitled Peer Review of the Federal Housing Finance

                  Board (FHFB) (OIG-01-08). The objective of the peer review

                  program is to foster quality audits by OIG’s through an

                  independent assessment of the effectiveness of the internal

                  quality control system in providing reasonable assurance that

                  applicable audit standards and requirements are being followed.



                  The General Accounting Office’s Government Auditing

                  Standards, “Yellow Book,” requires an external quality review,

                  called a peer review, to be conducted every three years on

                  organizations that conduct government audits. A peer review,

                  by definition, is a review of an audit organization by an

                  organization not affiliated with the audit organization being

                  reviewed. Prior to the start of this peer review, a Memorandum

                  of Understanding (MOU) was developed to assure that there is a

                  mutual understanding between the two OIGs regarding the

                  fundamental aspects of the review.



                  While performing the peer review, various documents like

                  FHFB’s previous peer review report conducted by the Federal

                  Maritime Commission, the Guide for Conducting External


April 1, 2001 - September 30, 2001                                              Page 34
                  Quality Control Reviews of the Audit Operations of Offices of the

                  Inspector General, and the listing of completed audits issued by

                  the FHFB OIG during the period of the scope, were reviewed in

                  order to determine whether the OIG’s audits comply with

                  Government Auditing Standards. Interviews were are also

                  conducted with the audit manager to inquire about general

                  office procedures, including training and supervision.



         •	       The OIG also initiated a special project pertaining to staff

                  retirement. The purpose of the retirement project is to provide

                  an analysis of the FEC’s projected employee retirements. The

                  OIG analysis will include statistics on employee retirements

                  within a time period of five, seven, and ten years. According to

                  remarks at a Senate hearing on May 18, 2000, approximately

                  thirty-two percent of the entire Federal workforce will be

                  eligible for regular retirement by the year 2004, and another

                  twenty-one percent will be eligible for early retirement.



                  To assist with the special project, the OIG has conducted a

                  meeting with the Director of Personnel, requested retirement

                  reports from both the Data Systems Division Director and the

                  Personnel office. In addition, the OIG has read reference

                  material, and reviewed the work completed to date. We


April 1, 2001 - September 30, 2001                                               Page 35
                  anticipate the completion of this project during the next

                  reporting period.



         •	       The Special Assistant to the Inspector General has the

                  responsibility of conducting unannounced cash counts of the

                  FEC’s imprest fund. The purpose of the cash count is to: 1)

                  verify all imprest funds are properly accounted for; 2) the

                  amount of the fund is not in excess of the cash requirements;

                  and 3) disbursements from the fund are reasonable in amount

                  and purpose.



                  Two cash counts were performed (OIG-01-06, and OIG 01-07)

                  during this reporting period. The results of the cash counts

                  revealed that all cash was accounted for and disbursements

                  from the fund were reasonable and consistent with FEC imprest

                  fund policy.



                  The Financial Management Service (FMS) issued a directive

                  announcing the elimination of the imprest fund. Treasury

                  Financial Manual (TFM), Part 4, Section 3000, Imprest Fund

                  Policy Directive, requires all Federal agencies to eliminate

                  imprest funds by October 1, 2001. In accordance with the

                  Treasury Policy Directive, the FEC Accounting Officer notified


April 1, 2001 - September 30, 2001                                               Page 36
                  the OIG that a deposit of $2,500, the total amount maintained

                  in the imprest fund, was made to a specified financial institute,

                  consequently terminating the use of the FEC imprest fund.



         •	       During the course of this reporting period, the OIG initiated

                  a new procedure to monitor the status of outstanding

                  recommendations contained in audit reports released by the

                  OIG. The Outstanding Audit Recommendation Follow-Up Log

                  was created to remind management, mid-way through the six

                  month reporting process, that there are outstanding audit

                  recommendations which have not been implemented and will be

                  reported in the next semiannual report if they are not closed

                  prior to the end of the reporting period. Included in the log are

                  the title, number, and release date of the report; a summary of

                  the recommendations; whether or not management agreed with

                  the recommendations; whether or not the recommendations

                  have been closed; and the division responsible for action. The

                  OIG believes this new procedure will be useful in helping both

                  management and the OIG staff monitor outstanding

                  recommendations.




April 1, 2001 - September 30, 2001                                            Page 37
                              ECIE AND PCIE ACTIVITY


         The Executive Council on Integrity and Efficiency was established by

Executive Order on May 11, 1992. It consists of Designated Federal Entity

Inspectors General and representatives of the Office of Government Ethics,

the Office of Special Counsel, the Federal Bureau of Investigation and the

Office of Management and Budget.



         The Inspector General (or staff) attended the following training,

programs and/or conferences during this reporting period:



         •   ECIE - Monthly Meetings

         •   PCIE/ECIE - Joint Quarterly Meeting

         •   PCIE/ECIE - Joint Retreat

         •   ECIE - OIG Community Discussion

         • 	 U.S. Department of Agriculture - Certified Internal Audit
             Examination Review

         • 	 Academy of Personnel Law & Administration - Basic non-criminal
             Investigation Conference

         • 	 High Tech Crime Investigations Association - Computer Crime
             Training Symposium

         • 	 Association of Government Accountants - Professional Development
             Conference, Managing in the 21st Century

         • 	 Inspector General Auditor Training Institute - Writing Successful
             Audit Reports



April 1, 2001 - September 30, 2001                                           Page 38
         •   Management Concepts - Plain Language, Writing for Success

         • 	 Council of Counsels (CCIG) - Conference, Legal Issues Associated
             with Information Technology

         • 	 Federal Election Commission - Computer Information Security
             Training

         •   Federal Election Commission - Administrative Liaison Meeting




April 1, 2001 - September 30, 2001                                         Page 39
IG ACT                     REPORTING REQUIREMENTS                                         PAGE


Reporting requirements required by the Inspector General Act of 1978, as amended by
the Inspector General Act Amendments of 1988 are listed below:


Section 4(a)(2)            Review of Legislation-----------------------------------------------30

Section 5(a)(1)	           Significant Problems, Abuses, and
                           Deficiencies---------------------------------------------------------None

Section 5(a)(2)	           Recommendations with Respect to
                           Significant Problems, Abuses, and
                           Deficiencies---------------------------------------------------------None

Section 5(a)(3)	           Recommendations Included in Previous
                           Reports on Which Corrective Action Has
                           Not Been Completed-----------------------------------------------43

Section 5(a)(4)	           Matters Referred to Prosecutive
                           Authorities---------------------------------------------------------None

Section 5(a)(5)	           Summary of Instances Where Information
                           was Refused-------------------------------------------------------None

Section 5(a)(6)            List of Audit Reports---------------------------------------------- 11

Section 5(a)(7)            Summary of Significant Reports------------------------------ 11

Section 5(a)(8)            Questioned and Unsupported Costs------------------------- 41

Section 5(a)(9)	           Recommendations that Funds be put
                           to Better Use-------------------------------------------------------- 42

Section 5(a)(10)	          Summary of Audit Reports issued before
                           the start of the Reporting Period for which
                           no Management Decision has been made----------------N/A

Section 5(a)(11)           Significant revised Management Decisions-------------N/A

Section 5(a)(12)	          Management Decisions with which the
                           Inspector General is in Disagreement-------------------None




April 1, 2001 - September 30, 2001                                                                     Page 40
                                           TABLE I

                        INSPECTOR GENERAL ISSUED REPORTS
                              WITH QUESTIONED COSTS


                                                     DOLLAR VALUE (in thousands)

                                                     QUESTIONED    UNSUPPORTED
                                          NUMBER        COSTS         COSTS




A. 	 For which no management                0             0              [0]
     decision has been made by
     commencement of the reporting
     period


B. Which were issued during the             0             0              [0]
   reporting period

         Sub-Totals (A&B)                   0             0              [0]


C. 	 For which a management                 0             0              [0]
     decision was made during
     the reporting period

         (i) Dollar value of disallowed     0             0              [0]
             costs

         (ii) Dollar value of costs         0             0              [0]
              not disallowed


D. 	 For which no management                0             0              [0]
     decision has been made by the
     end of the reporting period


E. 	 Reports for which no management        0             0              [0]
     decision was made within
     six months of issuance




April 1, 2001 - September 30, 2001                                             Page 41
                                           TABLE II

              INSPECTOR GENERAL ISSUED REPORTS WITH
         RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE



                                               NUMBER   DOLLAR VALUE
                                                         (in thousands



A.	      For which no management                 0            0
         decision has been made by
         the commencement of the
         reporting period

B. 	     Which were issued during                0            0
         the reporting period

C.	      For which a management                  0            0
         decision was made during
         the reporting period

         (i) 	    dollar value of                0            0
                  recommendations
                  were agreed to by
                  management

                  based on proposed              0            0
                  management action

                  based on proposed              0            0
                  legislative action

         (ii) 	   dollar value of                0            0
                  recommendations
                  that were not agreed
                  to by management

D. 	     For which no management                 0            0
         decision has been made by
         the end of the reporting period

E. 	     Reports for which no                    0            0
         management decision
         was made within six months
         of issuance




April 1, 2001 - September 30, 2001                                   Page 42
                                              TABLE III

           SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS
                OUTSTANDING FOR MORE THAN SIX MONTHS




                                                            Recommendations
                                     Report       Issue
  Report Title                       Number       Date    Number   Closed   Open

Agency Year 2000
                    98-08        05/99     9         9       0

Renovations


Agency Controls                      00-01        09/00     7         3       4

Governing the Process

for Procurement of Vendor

Training Services





April 1, 2001 - September 30, 2001                                          Page 43

                                                                       FEC / OIG Strategic Plan

                                                           OIG Process: To develop and implement                            OIG Staff: To maintain a skilled and motivated
 OIG Products: To provide products and
                                                           processes, policies, and procedures to ensure                    work force in an environment that fosters
 services that promote positive change in
                                                           the most effective and appropriate use of OIG                    accountability, communications, teamwork, and
 FEC policies, programs, and operations.
                                                           resources in support of our people and products.                 personal and professional growth.


 Objective A: Deliver timely, high-quality                                                                                  Objective A: Attract and retain well-qualified,
 products and services that promote                                                                                         diverse and motivated employees.
 positive change.                                            Objective A: Maintain a dynamic strategic
                                                             planning process.                                              Strategy:
                                                                                                                            - develop and implement a comprehensive recruiting program
 Strategy:                                                                                                                  that attracts a broad population with the knowledge, skills,
 - establish common OIG standards for communicating          Strategy:
                                                                                                                            abilities, and expertise necessary to make meaningful
 results;                                                    - periodically review and update the strategic plan to
                                                                                                                            contributions to the OIG;
 - conduct quality assurance programs;                       address changing OIG and FEC priorities; and,
                                                                                                                            - assess employee satisfaction and develop strategies to address
 - solicit appropriate internal and external review and      - identify factors that influence organizational change and
                                                                                                                            employee concerns;
 comment;                                                    develop short and long term plans to address them.
                                                                                                                            - identify reasons for staff departures and develop plans to foster
 - comply with applicable statutory guidelines and                                                                          greater staff retention; and,
 standards;                                                                                                                 - adhere to EEO principles and strive to maintain a diverse work
 - set realistic and appropriate milestones.                                                                                force.

 Objective B: Address priority issues and
 concerns of the Commission, Congress,
                                                             Objective B: Plan and conduct cost-
 and Management.
                                                             effective work that address critical issues                    Objective B: Provide training and developmental
 Strategy:     Perform work that supports;                   and results in positive change.                                opportunities to employees.
 - Federal Election Commission and Congressional
 priorities;                                                 Strategy:                                                      Strategy:
 - National Performance Review objectives;                   - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
 - Strategic Management Initiative efforts;                  activities;                                                    office needs as well;
                                                             - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
 Focus OIG attention in the following areas of emphasis:     goals and priorities;                                          training are adhered to; and,
 - managing change;                                          - ensure that priorities of IG are effectively communicated;   - maintain a reporting system to ensure that educational
 - resource allocation in relation to policy objectives;     and,                                                           requirements are met.
 - delivery of client service;                               - identify specific targets for OIG review that are the most
 - causes of fraud and inefficiency; and,                    cost-effective
 - automation and communication.



                                                             Objective C: Identify customer needs and
                                                             provide products and services to meet
 Objective C: Follow-up and evaluate                         them.                                                          Objective C: Assess, recognize, and reward,
 results of OIG products and services to                                                                                    when possible, performance that contributes to
 assess their effectiveness in promoting                     Strategy:                                                      achieving the OIG mission.
 positive change.                                            - establish new customer feed back mechanisms;
                                                             - consider and evaluate customers feedback when
                                                             planning and developing products and services;
                                                                                                                            Strategy:
 Strategy:                                                   - respond to Congressional inquires and request for
                                                                                                                            - develop and articulate expectations for each employee's
 - Identify, as appropriate, lessons learned to improve                                                                     performance, including contributions in meeting the mission &
                                                             briefing and testimony;
 timeliness and quality; and,                                                                                               goals of the OIG; and,
                                                             - promote open exchange of ideas and information through
 - conduct follow-up reviews to determine if intended                                                                       - ensure that rewards, when possible, are given in recognition of
                                                             outreach and through use of e-mail; and,
 results have been achieved.                                                                                                exceptional employee performance.
                                                             - receive, evaluate, and respond, as appropriate, to
                                                             information received through the OIG hotline and other
                                                             sources.


 Objective D: Satisfy customers,                             Objective D: Implement efficient, effective,
 consistent with the independent nature of                                                                                  Objective D: Create and maintain a working
                                                             and consistent resolution and follow-up                        environment that promotes teamwork and
 the OIG.                                                    procedures.                                                    effective communication.
 Strategy:                                                   Strategy:
 - establish professional communication and interaction                                                                     Strategy:
                                                             - ensure that IG follow-up procedures are followed and that
 with customers to promote the open exchange of ideas;                                                                      - ensure that communications between employees is open; and,
                                                             management is aware of their role in the process; and,
 - incorporate customer feedback, as appropriate; and,                                                                      - provide employees with the tools and incentives they need to
                                                             - establish common OIG standards for terminology, date
 - be open to customer-generated solutions and                                                                              adequately perform their duties.
                                                             maintenance and communications.
 options.


                                                             Objective E: Establish a positive and
                                                             productive working environment.

                                                             Strategy:
                                                             - reengineer or streamline OIG procedures to achieve the
                                                             most effective use of resources; and,
                                                             - ensure that necessary technologies, evolving and
                                                             otherwise, are made available to staff as needed.



 Performance Measures: Determine the
 timeliness and quality of products and                      Performance Measures: An annual audit                          Performance Measures: All employees meet
 services; their effectiveness in promoting                  plan is issued; strategic plan is periodically                 the training requirements; all employees have
 positive change; and, reach agreement                       reviewed; and, necessary technology is                         performance standards; and, all employees meet
 with management on at least 90% of                          provided to staff to enable them to most                       the basic requirements for the position in which
 recommendations within six months of                        efficiently perform their duties.                              they were hired to perform.
 the report issue date.




April 1, 2001 - September 30, 2001                                                                                                                                           Page 44
          CONTACTING THE OFFICE OF INSPECTOR GENERAL

The success of the OIG mission to prevent fraud, waste, and abuse depends
on the cooperation of FEC employees (and the public). There are several
ways to report questionable activity.




         Call us at 202-694-1015 or toll-free 1-800-424-9530. A confidential or
         anonymous message can be left 24 hours a day / 7 days a week.




         Write or visit us - we are located at:	     Federal Election Commission
                                                     Office of Inspector General
                                                     999 E Street, N.W., Suite 940
                                                     Washington, DC 20463

                             Mail is opened by OIG staff members only.




                            You can also contact us by e-mail at: oig@fec.gov.


Individuals may be subject to disciplinary or criminal action for knowingly
making a false complaint or providing false information.




April 1, 2001 - September 30, 2001                                               Page 45
